No. 20-267

3fa tfje Supreme Court of tfje

States

Sean Braunstein,
Petitioner,
v.
Jericka Braunstein,
Respondent.
CERTIFICATE OF SERVICE OF PETITION FOR REHEARING

Carson J. Tucker, JD, MSEL, Counsel of Record
Lex Fori, PLLC
1250 W. 14 MILE RD., DPT. #3020
Troy, MI 48083-1030
(734) 887-9261
citucker@lexfori.org

CERTIFICATE OF SERVICE OF MOTION FOR REHEARING
Pursuant to Supreme Court Rules and further Orders of the Court dated April 15, 2020
undersigned sent on the below date by first class mail and/or by email if electronic service was
consented to a copy of the refiled Petitioner’s Petition for Rehearing of Petition for Writ of
Certiorari to the New Hampshire Supreme Court in the above-captioned case to counsel as follows:
ATTORNEYS FOR RESPONDENT
Anthony Santoro, Esq.
Granite State Legal Resources
64 North State St., Suite 5
Concord, NH 03301
GUARDIAN AD LITEM
Deborah Mulcrone
Mulcrone Law PLLC
37 Salmon St.
Manchester, NH 03104
(603) 494-6879

Respectfully submitted,

kL.
Carson J. Wicker
Attorney for Petitioner
citucker@lexfori.org
(734) 887-9261
January 14, 2021

2

